                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A070020007
                                                                               11          Page 1 of 1



          An anonymous complainant alleged that a principal investigator (PI)' at an institution2
          mismanaged his NSF grant funds, as well as, failed to meet the cost sharing requirement on an
          NSF grant.3

          Our office requested the general ledgers and supporting documentation from the institution. We
          reviewed the financial documentation and reviewed the program jacket. From our analysis, we
          determined that the allegations raised by the complainant were not substantiated.

          Accordingly, this case is closed.




 NSF OIG Form 2 (1 1/02)
